      Department of Homeland Security




              Progress Has Been Made in
            Securing Laptops and Wireless
                   Networks at FEMA




OIG-12-93                                   June 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      June 27, 2012

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency’s efforts to safeguard laptop computers and implement controls to
protect the sensitive data processed by its wireless networks and devices from potential
exploits. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank W. Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


     Actions Taken To Enhance Laptop and Wireless Security ...........................................5


     Laptop Inventory Management Controls Need Strengthening ......................................7

     Recommendations..........................................................................................................9

     Management Comments and OIG Analysis ..................................................................9


     Improvements Needed on Laptop Security Management..............................................9

     Recommendations........................................................................................................16

     Management Comments and OIG Analysis ................................................................16


     Performing Assessments Can Enhance Wireless Security ..........................................17

     Recommendation .........................................................................................................19

     Management Comments and OIG Analysis ................................................................19


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................20

     Appendix B:           Management Comments to the Draft Report .......................................22

     Appendix C:           Major Contributors to this Report........................................................25

     Appendix D:           Report Distribution ..............................................................................26


Abbreviations
     DHS                   Department of Homeland Security
     DISC                  Disaster Information Systems Clearinghouse
     EOC                   Enterprise Operations Center
     FEMA                  Federal Emergency Management Agency
     FMD                   Facilities Management Division
     IT                    information technology
     JFO                   Joint Field Office
     LIMS                  Logistics Information Management System
     MERS                  Mobile Emergency Response Support
     NACS                  National Emergency Management Information System Access Control
                           System

     OCIO                  Office of the Chief Information Officer

     OIG                   Office of Inspector General

     USGCB                 United States Government Configuration Baseline

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   We audited the Federal Emergency Management Agency’s
                   (FEMA) efforts to protect its laptop computers and controls
                   implemented to protect sensitive data processed by its wireless
                   networks and devices from potential exploits. Specifically, we
                   evaluated FEMA’s inventory process for safeguarding its laptops,
                   reviewed its configuration management program, and conducted
                   security assessments on its wireless networks. Additionally, we
                   followed up on FEMA’s actions to address the recommendations
                   cited in two prior audit reports.

                   FEMA has taken actions to improve the inventory and configuration
                   management controls to protect its laptop computers and the
                   sensitive information they store and process. Furthermore, FEMA
                   has implemented technical controls to protect the information stored
                   on and processed by its wireless networks and devices.

                   However, we found weaknesses in the component-wide adoption
                   of FEMA’s automated property management system, reporting of
                   lost and stolen laptops, implementation of hard drive encryption,
                   use of a standardized laptop image, timely installation of security
                   patches, documentation of laptop sanitization, and accounting for
                   wireless networks. These weaknesses put laptops and the sensitive
                   information stored and processed on them at risk of exploitation.
                   Improvements are needed to address security risks and ensure the
                   security of laptops and wireless networks and devices.

                   We are making two recommendations to the Chief Administrative
                   Officer and five recommendations to the Chief Information
                   Officer. FEMA concurred with all of our recommendations and
                   have begun to take actions to implement them. FEMA’s responses
                   are summarized and evaluated in the body of this report and
                   included, in their entirety, as appendix B.




         Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                          Page 1
Background
                           FEMA coordinates the Federal Government’s role in preparing for,
                           preventing, mitigating the effects of, responding to, and recovering
                           from all natural or manmade domestic disasters, including acts of
                           terror. As of October 2011, FEMA had more than 7,400
                           employees, who include a mix of full-time and part-time
                           employees on standby for deployment after disasters. Employees
                           are stationed at FEMA headquarters in Washington, DC; at
                           regional and area offices across the country; and at the National
                           Emergency Training Center in Emmitsburg, MD.

                           To accomplish its mission, FEMA relies heavily on the use of
                           laptop computers, which have grown in popularity across the
                           Federal Government. As of October 2011, FEMA reported an
                           inventory of more than 40,000 laptops across the enterprise.
                           Although the mobility of laptops has increased the productivity of
                           the Federal workforce, it has also increased the risk of theft and
                           unauthorized disclosure of sensitive data.

                           The use of wireless networks and devices (e.g., Institute of
                           Electrical and Electronics Engineers 802.11x) is increasing
                           throughout the Federal Government. 1 Wireless technologies are
                           used to support FEMA’s mission in a variety of ways at Joint Field
                           Offices (JFOs), regional offices, and distribution centers. 2
                           Wireless networks extend the range of wired networks by using
                           radio waves to transmit data to wireless-enabled devices, such as
                           mobile devices and laptops. Wireless technologies offer many
                           potential benefits in improving employee productivity and
                           flexibility. In addition, deploying wireless networks can provide
                           tremendous cost savings compared with wired infrastructures.
                           However, wireless networks and devices can also introduce
                           significant security issues when they are not properly configured,
                           such as eavesdropping, the need for physical protection of wireless
                           devices, and unauthorized deployment of wireless access points.

                           In June 2007, we reported deficiencies in configuration, patch, and
                           inventory management controls over FEMA’s government-issued
                           laptops. 3 We found that sensitive information stored and
                           processed on FEMA laptops might not have been protected

1
  The 802.11x (e.g., 802.11a, b, g, and n) standards developed by the Institute of Electrical and Electronics

Engineers are frequently used for transmission specifications on wireless devices.

2
  A JFO is a temporary Federal multiagency coordination center established locally to facilitate field-level 

domestic incident management activities related to prevention, preparedness, response, and recovery. 

3
  Improved Administration Can Enhance Federal Emergency Management Agency Laptop Computer
Security (OIG-07-50), June 2007.

                Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                    Page 2
          properly. Specifically, we found that FEMA had not established
          (1) effective processes to apply the domain security policy to its
          laptops that met required minimum security settings, (2) effective
          procedures to patch laptops, and (3) adequate laptop inventory
          management procedures. We also determined that FEMA had an
          incomplete and inaccurate laptop inventory. We were unable to
          locate 26 of 242 (11percent) of a random selection of laptops.

          The Operations Support Branch of the Office of the Chief
          Information Officer (OCIO) is responsible for providing
          information technology (IT) capabilities to FEMA and State and
          local governments in support of the component’s all-hazards
          mission. The Operations Support Branch manages, operates, and
          maintains FEMA’s IT systems, networks, and services centers.
          The Field Support Team within the Operations Support Branch
          maintains a distribution warehouse, known as the Disaster
          Information Systems Clearinghouse (DISC).

          The DISC centralizes wireless network deployment in support of
          local, regional, and field offices across the country. In addition,
          the DISC serves as a centralized facility where selected laptops and
          communications equipment are housed in preparation for a disaster,
          shipped to JFOs once they are activated, and eventually returned
          upon closure of the disaster. DISC laptops are stored in
          ready-to-ship sets of 50 units each known as “kits,” as shown in
          figure 1.




          Figure 1: Kits upon arrival at the Albany Joint Field Office

          In December 2010, the OCIO established the Enterprise Wireless
          Local Area Network General Support System to provide wireless
          local area network connectivity across FEMA and network
          infrastructure resources to its end users. In addition, wireless
          networks are deployed at 9 of 10 Regional Offices to grant public



Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                 Page 3
                          Internet access only (i.e., the FEMA Enterprise Network 4 is
                          inaccessible) to Federal, State, local, tribal, and private sector
                          partners during Regional Response Coordination Center
                          activations. 5 JFOs, in comparison, are initially activated with a
                          wireless network that grants users access to the FEMA Enterprise
                          Network.

                          FEMA centrally manages the authorization, deployment, security,
                          and monitoring of wireless networks. The FEMA OCIO
                          Authorizing Official tracks and authorizes wireless networks.
                          Members of Disaster Response Teams at the DISC are responsible
                          for deploying and securing wireless networks at JFOs. The JFO
                          wireless networks follow a standardized deployment and security
                          architecture, as shown in figure 2.




                          Figure 2: Architecture for wireless local area network installation

                          After deployment and throughout the rest of the life cycle, the
                          FEMA Network Operations Center monitors wireless networks.
                          The wireless networks at JFOs are either taken down when the site
                          is deactivated or are replaced with a wired network when the site
                          becomes a permanent office.




4
  All facets of FEMA’s community use the FEMA Enterprise Network to transmit data between users, 

systems, and applications; to connect to external agencies with which FEMA conducts business; and to 

provide server infrastructure for applications and systems that support FEMA’s mission.

5
  Regional offices activate their Regional Response Coordination Centers to serve as the main coordination

point between Federal agencies to support State and local governments with disaster response and recovery.


               Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                  Page 4
Results of Audit

     Actions Taken To Enhance Laptop and Wireless Security
           FEMA has made progress in implementing management controls to
           safeguard laptops through improved inventory maintenance. For example,
           we selected 178 laptops at five sites to determine whether FEMA had
           accurately recorded the laptop locations in its property management
           system. We were able to locate all 178 laptops. This is an improvement
           over the results from our prior audit. Table 1 summarizes the results of
           our 2011 inventory evaluation.

                                                   Laptops       Laptops      Percent
            Location
                                                   Selected      Located      Located
            DISC                                      101           101         100%
            Winchester, VA
            Region 10 Headquarters                     8             8          100%
            Bothell, WA
            Mobile Emergency Response
            Support Detachment                         19           19          100%
            Bothell, WA
            Joint Field Office                         29           29          100%
            Albany, NY
            Joint Field Office                         21           21          100%
            New Orleans, LA
            Total                                     178           178         100%
           Table 1: Results of 2011 OIG Inventory Evaluation

           FEMA has also implemented the following inventory controls:

               •	 Issued the FEMA Personal Property Manual to establish a

                  comprehensive framework to help manage and account for 

                  government property procured by FEMA;


               •	 Captured more than 40,000 laptops in its automated property
                  management system, the Logistics Information Management
                  System (LIMS); and

               •	 Conducted comprehensive annual reviews of accountable property,
                  including laptops, as specified in the FEMA Personal Property
                  Manual.




         Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                          Page 5
                  In addition, FEMA has implemented the following technical controls to
                  safeguard the information stored on and processed by its laptops and
                  wireless networks:

                       •	 FEMA centrally manages the configuration and patch management
                          process on laptops using a combination of controls, including a
                          FEMA-developed password management solution and third-party
                          vulnerability management software. In addition, FEMA has
                          deployed standardized images on its laptops. A standardized
                          image can help to establish a consistent baseline implementation of
                          configuration controls across the enterprise.

                       •	 The Chief Information Officer approved a standardized Windows 7
                          image on March 30, 2011. FEMA began to deploy the new image
                          in November 2011. As of January 2012, 300 laptops with the
                          Windows 7 image had been shipped from the DISC to two sites.

                       •	 The OCIO has developed standard operating procedures for
                          sanitizing its laptops to ensure that sensitive information is not
                          recoverable when laptops are transferred, become obsolete, or are
                          no longer usable.

                       •	 Wireless signals are not broadcasting beyond the perimeter of
                          buildings at the sites visited, as FEMA has deployed wireless
                          access points strategically to minimize signal leakage and potential
                          unauthorized access. Further, we identified no rogue or
                          unauthorized wireless networks or devices with access to the
                          FEMA Enterprise Network. 6 Wireless access points are
                          configured not to broadcast extended service set identifiers to
                          avoid advertising wireless networks’ identities and functions to
                          potential attackers. 7

                       •	 Virtual private network software is required to be installed on
                          laptops before users can connect to wireless networks. Secure
                          connections are established through an encrypted virtual private
                          network tunnel using either one-factor or two-factor authentication.

                       •	 FEMA employs wireless intrusion protection systems to monitor
                          and detect malicious behavior on its Enterprise Wireless Local
                          Area Network.



6
  We used AirMagnet software to scan for unauthorized wireless networks and to detect signal leakage at 

four sites: the DISC, Region 10 headquarters, Albany JFO, and New Orleans JFO.

7
  An extended service set identifier is used to identify a wireless network to client devices, as specified in

the Institute of Electrical and Electronics Engineers standards for 802.11x wireless networks.


                Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                     Page 6
      Although FEMA has taken actions to strengthen its inventory and
      configuration management controls, improvements are needed to ensure
      the security of its laptop computers and wireless networks and devices.
      Specifically, FEMA must address remaining weaknesses in the
      component-wide adoption of LIMS, reporting of lost and stolen laptops,
      implementation of hard drive encryption, use of a standardized operating
      system image, timely installation of security patches, documentation of
      laptop sanitization, and accounting for wireless networks.

Laptop Inventory Management Controls Need Strengthening
      Although FEMA has made progress in strengthening the inventory
      management process for its laptop computers, it can make further
      improvements by implementing additional inventory management
      controls. Specifically, FEMA needs to account for all laptops in LIMS
      and ensure that lost or stolen laptops are reported to the Department as
      security incidents. These weaknesses hinder FEMA’s ability to quickly
      distribute laptops in response to an emergency declaration and may
      prevent management from taking appropriate corrective actions in
      response to the loss or theft of laptop computers.

              FEMA Is Not Accounting for All Laptops in LIMS

              Some FEMA offices are not properly accounting for laptop
              computers in LIMS. While evaluating incidents of lost and stolen
              laptops, we found that 13 government-purchased laptops were
              reported missing to the Department of Homeland Security’s
              Enterprise Operations Center (DHS EOC) in 2011. However, 3 of
              these 13 laptops had never been accounted for in LIMS. The
              discrepancy exists because the Facilities Management Division
              (FMD) does not have the component-wide management support
              needed to ensure that LIMS is used to account for all government
              property. An FMD official told us that some FEMA offices choose
              to procure laptops and not record their purchase in LIMS.

              The FEMA Personal Property Manual requires the use of LIMS to
              account for all government accountable property. Further, DHS
              requires components to establish and maintain an accurate
              information systems inventory. When laptops are not properly
              accounted for, FEMA officials do not have a complete and
              accurate inventory of their disaster response equipment. This
              hinders FEMA’s ability to facilitate the distribution of laptops
              needed to manage response and recovery efforts following a
              disaster. It also creates an opportunity for theft and fraud, as
              offices have property that is not subject to inventory reviews.


    Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                     Page 7
                       Lost or Stolen Laptops Are Not Reported Consistently

                       Lost or stolen laptops are not being reported consistently to the
                       DHS EOC as security incidents. FEMA requires a Report of
                       Survey to be completed whenever a laptop is lost, stolen, damaged,
                       or destroyed. In 2011, 60 Reports of Survey were completed for
                       242 laptops. However, FEMA could not determine how many of
                       these 242 laptops were lost or stolen. FMD estimated that 95
                       percent were lost or stolen and 5 percent were damaged or
                       destroyed. By this estimate, approximately 230 laptops should
                       have been reported as lost or stolen to the DHS EOC as security
                       incidents. However, FEMA reported only 13 lost or stolen laptops
                       to the DHS EOC in 2011. This is an indicator that FEMA cannot
                       account for all of its laptops and does not comply with DHS
                       security incident reporting requirements. As a result, FEMA and
                       DHS may have underreported FEMA’s security incidents in the
                       Department’s fiscal year 2011 Federal Information Security
                       Management Act submission.

                       FMD was able only to estimate how many laptops were lost or
                       stolen versus damaged or destroyed because LIMS users do not
                       properly populate fields in LIMS to record this information. FMD
                       must then rely on hard copies of Reports of Survey to obtain more
                       detail about a specific incident. In 2007, we reported that FEMA
                       identified 58 lost or stolen laptops between January 2005 and
                       September 2006. 8 We noted that these incidents were reported to
                       FEMA headquarters but not to the DHS Computer Security
                       Incident Response Center, which is now part of the DHS EOC.

                       DHS requires components to report significant incidents to the
                       DHS EOC no later than 1 hour after the security event is confirmed
                       as an incident. Minor incidents must be reported to the DHS EOC
                       in a weekly incident report. However, the Report of Survey
                       procedures as outlined in the FEMA Personal Property Manual, as
                       well as the instructions on the Report of Survey itself, do not
                       address the requirement to report the loss of sensitive personal
                       property, such as laptops, to the DHS EOC.

                       Not reporting the loss or theft of laptops to the DHS EOC prevents
                       FEMA from taking appropriate corrective actions in response to
                       the loss or theft of a laptop. Also, it limits senior officials’
                       knowledge of the extent of laptop security issues.


8
 Improved Administration Can Enhance Federal Emergency Management Agency Laptop Computer
Security (OIG-07-50), June 2007.

             Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                              Page 8

     Recommendations
             We recommend that the Chief Administrative Officer:

             Recommendation #1: Implement appropriate management
             controls to ensure that all government-purchased laptops are
             accounted for in LIMS in accordance with applicable policy.

             Recommendation #2: Work with the Chief Information Officer
             to establish a process to ensure that the loss or theft of laptops are
             reported timely as security incidents to the DHS EOC.

     Management Comments and OIG Analysis
             FEMA concurred with recommendation 1. The Chief
             Administrative Officer will put measures into place to ensure that
             unaccounted-for laptops discovered in LIMS are escalated as an
             issue and addressed in compliance with policy. Further,
             compliance will be evaluated in July 2012 once an annual
             inventory review is completed.

             We agree that the steps FEMA plans to take begin to satisfy this
             recommendation. This recommendation will remain open until
             FEMA provides documentation to support that all planned
             corrective actions are completed.

             FEMA concurred with recommendation 2. The Chief
             Administrative Officer will put measures in place to ensure that
             accountable property reported as missing during inventories is
             reconciled with the incident reports received by the FEMA
             Security Operations Center. Instances of missing laptops will be
             escalated and appropriately addressed. Compliance with policy
             will be evaluated when the annual inventory review is performed
             in July 2012.

             We agree that the steps FEMA plans to take begin to satisfy this
             recommendation. This recommendation will remain open until
             FEMA provides documentation to support that missing laptops are
             reported timely as security incidents to the DHS EOC.

Improvements Needed on Laptop Security Management
     FEMA has not implemented all required controls on its Windows XP
     laptops to prevent unauthorized access. Nor has FEMA encrypted the
     hard drives to protect sensitive data stored on its laptops. Finally, some of


   Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                    Page 9
                 the sites we visited are not following documented sanitization procedures
                 to reimage, reissue, or transfer laptops.

                 To evaluate FEMA’s patch management process, we performed
                 vulnerability scans on 116 laptops at four regional offices and one JFO to
                 determine if security patches were deployed timely to mitigate software
                 vulnerabilities. In addition, we evaluated the compliance with applicable
                 United States Government Configuration Baseline (USGCB) and DHS
                 required settings on 73 laptops.

                          FEMA Has Not Encrypted All of Its Laptops

                          FEMA has not encrypted all of its laptop hard drives to protect its
                          sensitive information from unauthorized access. FEMA encrypts
                          the entire laptop hard drive according to DHS requirements to
                          prevent operating system controls from being circumvented and to
                          restrict access to the information stored on the hard drive. However,
                          as of January 2012, only 7,956 (20 percent) of its 40,130 laptop
                          hard drives are encrypted. FEMA expects all laptop hard drives to
                          be encrypted by April 2012. DHS requires that laptops be
                          encrypted according to National Security Agency requirements.
                          Additionally, electronic data must be encrypted using at least 256­
                          bit Advanced Encryption Standard according to Federal
                          Information Processing Standards. 9

                          In 2011, 60 Reports of Survey were completed for 242 laptops that
                          were lost, stolen, damaged, or destroyed. If the hard drive for any
                          of these laptops was not encrypted, sensitive information stored
                          would be accessible by circumventing other technical controls.
                          We reported in June 2007 that we were able to access all the
                          information stored on an unencrypted FEMA laptop. 10

                          Laptop Images Are Not Standardized

                          FEMA has not configured its laptop computers with all USGCB
                          settings. We determined that the standard Windows XP baseline
                          image complies with 92 percent of USGCB controls. However,
                          our scan results revealed that Windows XP laptops in the field are
                          not being configured with this standard image. In comparison,
                          Windows 7 laptops are consistently compliant with most USGCB
                          controls. As figure 3 shows, our scan results from a selection of


9
  Federal Information Processing Standard 197 details the Advanced Encryption Standard, a cryptographic
algorithm that can be used to protect electronic data.
10
   Improved Administration Can Enhance Federal Emergency Management Agency Laptop Computer
Security (OIG-07-50), June 2007.

               Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                Page 10
                             laptops revealed an average of 55 percent Windows XP
                             compliance and 92 percent Windows 7 compliance.




                             Figure 3: Windows 7 and Windows XP USGCB compliance

                             We identified the following examples of noncompliance with
                             USGCB requirements:

                                 •	 Administrative rights are granted automatically when users
                                    log in through the Windows recovery console. 11 Granting
                                    administrative rights automatically when using the recovery
                                    console increases the risk of unauthorized access and
                                    allows system controls to be circumvented.

                                 •	 Default administrator accounts on laptops have not been
                                    renamed or disabled. When Windows is installed, it
                                    configures several built-in accounts by default, such as an
                                    administrator account. Default administrator accounts
                                    provide attackers with a known user that has elevated
                                    permissions to access information stored locally on the
                                    laptop.

                                 •	 Password-protected screen savers are not used to secure
                                    unattended computers after a period of inactivity. Without
                                    screen saver passwords, a malicious user may log into an
                                    unattended laptop to gain unauthorized access to FEMA
                                    information.

                             The discrepancy between Windows XP and Windows 7 compliance
                             exists because Windows XP laptops lack the policy that enforces
                             these settings throughout the FEMA domain. As a result,


11
     The recovery console is used primarily to repair damaged installations of Windows.

                  Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                   Page 11
                          compliance with USGCB settings on Windows XP laptops varies
                          greatly throughout FEMA.

                          The Federal Information Security Management Act of 2002
                          requires agencies to apply configuration management principles to
                          Federal information systems, including hardware, software, and
                          standardized configuration settings. 12 In September 2010, the
                          Chief Information Officer Council approved USGCB settings
                          required for Windows 7 in addition to those previously specified
                          for Windows XP. 13

                          Without proper USGCB controls in place, sensitive information
                          stored on FEMA laptops could be subject to potential exploits.
                          Additionally, a compromised laptop could provide unauthorized
                          access to the FEMA network. Fully implementing a standard
                          configuration across the component will reduce the risk that
                          sensitive information may be exposed.

                          Security Patches Are Not Applied to Laptops Timely

                          FEMA is not effectively deploying security patches to its laptops.
                          Our vulnerability scans identified missing security patches, such as
                          a July 2007 patch for Microsoft Visio that could allow arbitrary
                          remote code execution. Arbitrary remote code execution would
                          allow unauthorized users to take over control of a laptop. Other
                          examples of missing security patches include Adobe Acrobat, Java,
                          Adobe Flash Player, Microsoft patch bulletins, Adobe Air, and
                          Web browsers. Figure 4 shows the percentage of scanned laptops
                          with at least one detected instance of a known high-risk
                          vulnerability.




12
   Congress enacted Title III of the E-Government Act of 2002 (Public Law 107-347, Sections 301–305) to
improve security within the Federal Government. Title III of the E-Government Act, entitled the Federal
Information Security Management Act, provides a comprehensive framework to ensure the effectiveness of
security controls over information resources that support Federal operations and assets.
13
   Office of Management and Budget 07-11 required that agencies running Windows XP adopt the settings
outlined in the Federal Desktop Core Configuration no later than February 1, 2008. In September 2010, the
USGCB replaced the Federal Desktop Core Configuration as the baseline for configuration requirements.

               Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                Page 12
          Figure 4: Percentage of laptops with known application vulnerabilities

          FEMA uses a centralized third-party software solution to deploy
          patches to systems throughout the enterprise. The current process
          requires security patches to be approved and sent to servers at
          regional offices to deploy locally. Local administrators are then
          notified to deploy patches to the systems at their site. An OCIO
          representative explained that patches may not be deployed timely
          because of delays between the time patches are sent to onsite
          servers and when they are applied to local systems.

          DHS requires components to reduce system vulnerabilities by
          promptly installing security and software patches. Security
          patches are required to protect systems from potential exploits and
          vulnerabilities as they are discovered. The DHS EOC releases
          vulnerability management messages to alert components to
          security patches. The messages direct users of the timeframe in
          which a security patch should be applied.

          Failure to install software patches could expose FEMA laptops to
          risk, depending on the severity of the vulnerability identified.
          Malicious emails can trick users into visiting a Web page or
          opening files designed to exploit vulnerabilities in software
          installed on laptops. Ensuring that software is up to date
          minimizes this risk and protects laptops and the sensitive
          information they process and store.

          FEMA Password Policy Is Not Enforced for Local Users

          FEMA local administrator accounts are not configured to comply
          with DHS password policy. Weak password controls are
          configured on laptops, resulting in easily guessed passwords on

Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                Page 13
                           local accounts. Specifically, Active Directory has not been
                           configured to remember any of the previous passwords used,
                           require local passwords to be changed every 180 days, and require
                           password complexity. Additionally, local accounts are being
                           shared among onsite administrators. Weak password controls may
                           allow malicious users to gain unauthorized access to sensitive
                           information stored on laptops.

                           Although FEMA has configured Active Directory controls that are
                           applied to all users, these controls do not adhere to DHS password
                           requirements. Instead, FEMA uses the National Emergency
                           Management Information System Access Control System (NACS),
                           an in-house developed software tool, to enforce user password
                           settings. Although password controls enforced through NACS
                           apply to all domain accounts, this policy does not apply to local
                           accounts on FEMA laptops. Since local administrator accounts
                           receive only the Active Directory settings and not the stronger
                           NACS controls, these accounts may have weak passwords.

                           DHS requires users to change their passwords every 90 days to
                           prevent users from gaining unauthorized access. DHS also
                           requires accounts to be assigned to one user and not shared among
                           personnel. Additionally, USGCB policy states that password
                           complexity must be enabled and account history set to remember
                           the last 24 passwords used.

                           Weak password controls can result in a compromised administrator
                           account. FEMA information stored on a laptop with a
                           compromised local administrator account could be exposed to
                           unnecessary risk. Additionally, since these accounts do not belong
                           to a single person, audit trails cannot be used to identify who
                           accessed information stored on a laptop.

                           Laptop Sanitization Is Not Consistently Documented

                           Laptop sanitization is not being consistently documented at the
                           sites visited. 14 Specifically, these sites do not document execution
                           of this process and certify the completion of sanitization according
                           to FEMA policy. When laptop sanitization is not performed and
                           documented consistently, FEMA cannot ensure that unauthorized
                           users cannot recover deleted data from the hard drives.




14
  Sanitization refers to the process of removing and erasing data from storage media such that there is
reasonable assurance that the data may not be easily retrieved and reconstructed.

               Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                                  Page 14
          For example, although laptop sanitization is being performed and
          documented at the DISC, Bothell Mobile Emergency Response
          Support (MERS) Detachment, and New Orleans JFO, the process
          is not recorded at the FEMA Region 10 headquarters or Albany
          JFO. In addition, a locally developed form is used to document
          laptop sanitization at the DISC, Bothell MERS Detachment, and
          New Orleans JFO, instead of the required OCIO certification. We
          also determined that the forms developed at these sites do not
          contain all the required information, such as date, sanitization
          method used, and name of the Property Custodian.

          In November 2010, the Administrator issued Directive #137-2,
          which requires documentation of laptop sanitization and includes a
          Sanitization Certification Form for use in meeting the requirement.
          In addition, it specifies that no electronic media will be issued,
          transferred, disposed of, or returned to vendors or manufacturers
          without being sanitized to the standards of this Directive.

          DHS requires components to maintain records of the sanitization
          and disposition of information systems storage media. In addition,
          FEMA requires the Property Custodian and Enterprise Service
          Desk/Local IT Site Support to complete the Sanitization
          Certification Form included in the media sanitization and release
          directive when a laptop is sanitized. The National Institute of
          Standards and Technology recommends that agencies sanitize
          digital media using approved equipment and procedures. In
          addition, agencies should track, document, and verify media
          sanitization and destruction actions and periodically test
          sanitization equipment and procedures to ensure correct
          performance.

          According to FEMA personnel, they do not document laptop
          sanitization according to OCIO requirements because the OCIO
          has not informed offices of the media sanitization procedures
          issued in November 2010. Further, the OCIO does not verify
          whether offices comply with the media sanitization requirements.

          Without documenting media sanitization, FEMA cannot verify that
          a laptop has been sanitized, and deleted data cannot be easily
          recovered. As a result, there is greater risk of mistakenly disposing
          of or reassigning a laptop that has not been wiped of sensitive
          information. This may compromise the confidentiality of
          information on the laptop, especially if the laptop is unencrypted.




Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                Page 15
  Recommendations
          We recommend that the Chief Information Officer:

          Recommendation #3: Accelerate the implementation schedule to
          deploy full hard drive encryption for all laptops to prevent
          unauthorized access to information.

          Recommendation #4: Ensure that all required USGCB
          configuration settings are implemented on FEMA laptops.

          Recommendation #5: Ensure that security and software patches
          are deployed in a timely manner to all FEMA laptops.

          Recommendation #6: Implement appropriate management
          controls to ensure that laptop sanitization procedures, including
          documentation, are followed at all FEMA facilities.

  Management Comments and OIG Analysis
          FEMA concurred with recommendation 3. The Chief Information
          Officer has accelerated the upgrade of all laptops from Windows
          XP to a Windows 7 image that includes hard drive encryption
          software. The estimated completion date of the upgrade and
          implementation of hard drive encryption is November 2012.

          We agree that the steps FEMA has taken and plans to take begin to
          satisfy this recommendation. This recommendation will remain
          open until FEMA provides documentation to support that all
          planned corrective actions are completed.

          FEMA concurred with recommendation 4. FEMA stated that the
          required USGCB configuration settings had been implemented on
          all Windows laptops, and asked that this recommendation be
          closed.

          During our audit, scan results revealed that Windows 7 laptops are
          consistently compliant with most USGCB controls. However, we
          also found that Windows XP laptops in the field are not being
          configured with this standard image. We agree that FEMA will
          improve the compliance of USGCB settings when all laptops are
          upgraded to the Windows 7 image. This recommendation will
          remain open until FEMA provides documentation to support that
          all planned corrective actions are completed or the implementation
          of USGCB settings is verified through security testing.


Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                Page 16
              FEMA concurred with recommendation 5. The Chief Information
              Officer has begun replacing current patch management solutions
              with an agency-wide centralized patching mechanism. The new
              patching mechanism will be fully deployed by September 2012.

              We agree that the steps FEMA has taken and plans to take begin to
              satisfy this recommendation. This recommendation will remain
              open until FEMA provides documentation to support that all
              planned corrective actions are completed.

              FEMA concurred with recommendation 6. The Chief Information
              Officer will improve the awareness of FEMA’s Electronic and
              Hard Copy Media Sanitization and Release standard operating
              procedure and establish a process to monitor its enforcement by
              July 2012. The standard operating procedure requires the use of
              FEMA Form 137-1-1 to certify sanitization.

              We agree that the steps FEMA plans to take begin to satisfy this
              recommendation. This recommendation will remain open until
              FEMA provides documentation to support that all planned
              corrective actions are completed.

Performing Assessments Can Enhance Wireless Security
      FEMA can enhance its wireless security by assessing the associated risks
      and the effectiveness of controls implemented to protect the data stored on
      and processed by its wireless networks and devices. When these
      assessments are not performed, there is greater risk that security controls
      implemented to protect FEMA’s wireless networks can be circumvented.

              The Risks of JFO Wireless Networks Have Not Been Assessed

              FEMA has not performed risk assessments on its wireless networks
              at JFOs, as they are not included as part of the authorization
              boundary of any information systems. The use of sensitive wireless
              systems is approved by the OCIO, but JFOs are not included as part
              of any FEMA General Support System or major application, as
              required by DHS’ system inventory methodology. As a result, the
              Authorizing Official does not have the most updated information to
              make credible risk-based decisions regarding the system.

              The OCIO is aware that the JFOs are not accounted for in any
              recognized IT system. According to the OCIO, JFO wireless
              networks will eventually be included in the Enterprise Wireless
              Local Area Network system boundary. However, the process of
              formally accounting for them will take some time. As of

    Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                    Page 17
          January 2012, the Enterprise Wireless Local Area Network has not
          received a full Authority to Operate, and the current system
          boundary includes only wireless networks deployed at distribution
          centers, not JFOs. The OCIO did not provide an expected date for
          granting the full Authority to Operate or for adding JFO wireless
          networks to the system boundary.

          DHS requires that all IT assets be itemized and accounted for as
          part of a General Support System or Major Application. The use
          of wireless communications technologies is prohibited until it is
          approved by the appropriate Authorizing Official. Further,
          Authorizing Officials must approve the implementation and use of
          wireless systems at a specified risk level during the assessment and
          authorization process. Finally, appropriate and effective security
          measures are to be included in the System Security Plan.

          As of January 2012, 56 JFOs were activated across the country.
          Including JFOs in recognized IT systems will help to ensure that
          the systems are tracked and secured as required by DHS. Further,
          the OCIO will be kept informed of risks associated with each
          wireless system.

          Annual Security Assessments Have Not Been Performed for
          JFO Wireless Networks

          FEMA has not performed annual security assessments on all of its
          JFO wireless networks as required by DHS. For example, the New
          Orleans JFO wireless network has not undergone a security
          assessment since the office was established in October 2005. JFO
          personnel said that they were not aware of the requirement to
          perform security assessments on wireless networks. The OCIO
          confirmed that assessments had yet to be performed.

          According to the OCIO, since FEMA does not include JFO
          wireless networks in the boundary of any recognized IT system,
          annual wireless assessments are not required. However, the
          Network Operations Center does monitor the hardware that
          operates FEMA’s wireless networks.

          DHS requires that security assessments be conducted annually on
          all approved wireless systems. Wireless security assessments
          result in the ability to enumerate vulnerabilities, risk statements,
          risk levels, and corrective actions. The Information Systems
          Security Officer is required to perform a risk assessment
          periodically or when a major change is made that affects the
          overall system security posture.

Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                Page 18

          Since annual wireless security assessments have not been
          performed, FEMA may not be aware of vulnerabilities that may
          lead to potential exploits. Routine security assessments can be
          used to identify rogue or unauthorized access points, backdoors,
          and other system vulnerabilities, as well as to enumerate
          vulnerabilities, levels of risk, and corrective actions. Further, risk
          mitigation plans prioritize corrective actions and implementation
          milestones in accordance with defined risk levels.

  Recommendation
          We recommend that the Chief Information Officer:

          Recommendation #7: Account for all wireless networks within a
          recognized IT system and implement management controls to
          ensure that annual wireless security assessments are conducted.

  Management Comments and OIG Analysis
          FEMA concurred with recommendation 7. The Chief Information
          Officer will require that all wireless networks and devices be
          enrolled into the FEMA Network Operations Center for
          management and monitoring. In addition, the Chief Information
          Security Officer will establish controls to ensure that wireless
          security assessments are conducted annually. These efforts are
          expected to be completed by September 2012.

          We agree that the steps FEMA plans to take begin to satisfy this
          recommendation. This recommendation will remain open until
          FEMA provides documentation to support that planned corrective
          actions are completed and all wireless networks are accounted for
          within a recognized IT system.




Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                Page 19
Appendix A
Purpose, Scope, and Methodology

                     The objective of our audit was to determine whether FEMA has
                     implemented effective controls to protect its laptop computers and
                     the sensitive data processed by its wireless networks and devices
                     from potential exploits. Specifically, we determined whether
                     FEMA has (1) implemented an effective inventory management
                     process to safeguard its laptop computers, (2) implemented
                     effective configuration management controls to protect its laptop
                     computers, (3) implemented effective controls to ensure that
                     sensitive information processed by its wireless networks and
                     devices is protected from potential exploits, and (4) taken
                     corrective actions to mitigate the findings cited in our prior audit
                     reports, OIG-07-50 and OIG-08-14 (SECRET).

                     Our audit focused on requirements outlined in the DHS Sensitive
                     Systems Handbook 4300A, United States Government
                     Configuration Baseline, DHS Windows XP Secure Baseline
                     Configuration Guide, DHS Windows 7/Internet Explorer 8
                     Configuration Guidance, and FEMA Personal Property Manual
                     119-7-1. We interviewed selected personnel and management
                     officials in the Support Services and Facilities Management
                     Division of the Office of the Chief Administrative Officer, IT
                     Security Branch and Operations Support Branch of the Office of
                     the Chief Information Officer, the Logistics Management
                     Directorate of the Office of Response and Recovery, as well as
                     personnel stationed at JFOs. Fieldwork was performed at the
                     DISC in Winchester, VA; FEMA JFO in Albany, NY; FEMA JFO
                     in New Orleans, LA; MERS Detachment in Bothell, WA; FEMA
                     Region 10 headquarters in Bothell, WA; and FEMA headquarters
                     in Washington, DC.

                     We reviewed FEMA inventory maintenance policies and
                     procedures, employee exit processing procedures, access rights to
                     LIMS, laptop sanitization procedures, laptop distribution
                     procedures, laptop configuration and patch management plans, and
                     wireless network security policy. In addition, we conducted
                     vulnerability and USGCB compliance scans of Windows XP and
                     Windows 7 laptop images on a random selection of 116 deployed
                     laptops. We conducted testing to identify unauthorized wireless
                     networks and signal leakage and performed an inventory
                     evaluation of a random selection of 178 laptops. The laptops
                     identified for our inventory evaluation were randomly selected
                     from LIMS once we judgmentally identified locations for our site
                     visits based on the concentration of laptops and use of wireless
                     networks. The laptops identified for scans were randomly selected


           Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                           Page 20
Appendix A
Purpose, Scope, and Methodology

                     from four regional offices and one JFO, including from sites we
                     visited.

                     We conducted this performance audit between September 2011
                     and January 2012 pursuant to the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     upon our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and conclusions based
                     upon our audit objectives. Major OIG contributors to the audit are
                     identified in appendix C.

                     The principal OIG point of contact for the audit is
                     Frank W. Deffer, Assistant Inspector General, Information
                     Technology Audits, at (202) 254-4100.




           Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                           Page 21
Appendix B
Management Comments to the Draft Report


                                                                               U.S. Department or lI omcland Stc urll)'
                                                                               Washillj;10n, D.C. 20-172




                                                                  8 ; FEMA
                                          ~y   11 1011

        MEMORANDUM FOR: Charles K. Edwards
                        Acting Inspector General
                        Department of Homeland Security

        FROM:                     D?vid J. Kaufinan
                                  DIrector
                                                     /.JZ
                                                   /l'L----
                                  Office of Policy and Program Analysis

        SUBJECT:                  OIG Draft Report : Progress Nas Beell Made iI/ Securing Laptops 1I11d
                                  Wireless Networks lit F£MA - For Official Use Only
                                  OIG Project No. II-IS I-ITA-FEMA


        The Federal Emergency Management Agency (FEMA) appreciates the Department of Homeland
        Security (DHS) Office of the Inspector Genera l's cvaluation of our laptop scc\lrity controls and
        wireless networks. The evaluation has been very helpful in identifying areas requiring improvement
        and prioritizing work to implement the recommendations.

        FEMA concurs with the auditor's recommendations in the above referenced dran report. The
        FEMA Office of the Chief Infonnation Officcr (OC IO) is resolute in dirccting these audit
        recommendations be effect ively implemented. Plans of Action and Milestones (POA&Ms) are
        being developed to ensure thc recommendations are implemented in a timely manner. FEMA's
        OCIO Audit Remediation Team meets w(."Ckly with Action Officers to review the status of planned
        remediation milestones and address issues that are impeding progress. Branch Chiefs receive
        weekly reports reflecting the status of their organization 's assigned actions and are working to
        correct findings. Implementation of corrective actions is a perfonnance goal for each Branch Chief
        in thc OC IO.

        In reviewing the report, we noted that the number oflaptops reported as lost or stolcn was incorrect
        on page S. The number should be changed from 13 to 25. Attachment J lists the related security
        incidents.

        Regarding your recommendations, FEMA 's response to each fo llows:

        Reco mmendation # 1: Implement appropriate management controls to ensure that all government·
        purchased laptops arc accounted for in the Logistics Information Management System (L1MS) in
        accordance with appl icab le policy.

        Response: FEMA Manual J 19·7-1. PerSQllal Property (Attachment 2), has establi shed standards
        regarding accounting for laptops in L1 MS. Propeny Management Omcers (rMO) and Accountable
        Property Officers (APO) are requin.-d to fo llow this Manual. Confercnce calls with PMOs and APOs




            Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                                     Page 22

Appendix B
Management Comments to the Draft Report




        are routinely held that stress the importance of property accountability. Measures will be put in
        place to ensure that any discovery of laptops not being accounted for in LIMS is escalated to ensure
        that non-compliance is appropriately addressed. Policy regarding this control is already established.
        Compliance with policy wi1l be tested in July after the annual inventory is completed.

        This recommendation wi1l remain open until it is tested and found to be effective. The expected
        completion date is July 2012.

        Recommendation #2: Work with the Chief lnfonnation Officer to establish a process to ensure that
        the loss or theft oflaptops is reported timely as security incidents to the DHS EOC .

        Response: The FEMA Security Team aggressively investigates all reports of stolen laptops and
        other computer equipment. The Rules of Behavior (Attachment 3) that users sign when issued
        accountable property includes the requirement to report lost of stolen property to the FEMA Security
        Operations Center (SOC). Measures will be put in place to ensure that accountable property
        reported as missing during inventories are reconciled with the incident reports received by the SOC
        to ensure that the missing property was reported to the SOC promptly upon discovery. Instances
        where the incident was not reported wi1l be escalated and appropriately addressed. Policy regarding
        this control is already established. Compliance with policy will be tested in July after the annual
        inventory is completed.

        This recommendation will remain open until it is tested and found to be effective. The expected
        completion date is July 2012.

        Recommendation #3: Accelerate the implementation schedule to deploy full hard drive encryption
        for all laptops to prevent unauthorized access infonnation.

        Response: Accelerating the upgrade from Windows XP to the current Windows 7 image would
        satisfy this requirement because the WinMagic agent is included on this image. The established
        timeline for completing this upgrade is November 30, 2012.

        This recorrunendation is considered resolved and open until the upgrade is completed.

        Recommendation #4: Ensure that all required USGCB configuration settings are implemented on
        FEMA laptops.

        Respoose: All Windows laptops meet required USGCB configuration settings at this time.

        FEMA requests that this recommendation be resolved and closed.

        Recommendadon #5: Ensure that security and software patches are deployed in a timely manner to
        all FEMA laptops.

        Respoose: Patchlink and Windows SetVer Update Services (WSUS) are being phased out; Altiris,
        the centralized patching mechanism, will be fully deployed by September 30, 2012 provided receipt
        offollow-on funding. Agency-wide implementation of Altins will correct this issue.


                                                          2




            Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                                     Page 23

Appendix B
Management Comments to the Draft Report




        FEMA considers this recommendation resolved and open until implementation of the above action.

        Recommendation #6: Implement appropriate management controls to ensure that laptop
        sanitization procedures, including documentation, are fonowed at all FEMA facilities.

        RespoDse: Electronic and Hard Copy Media Sanitization and Release Standard Operating
        Procedure (SOP) standardizes the media sanitization process to include the usage of FEMA Fonn
        137-1-1 to certify. The SOP was signed and published September 2, 2011 and is included as
        Attaclunent 4. The OCIO will re-socialize this SOP FEMA-wide and establish a process to monitor
        its enforcement by July 31, 2012. To address the issue on password policy not being enforced for
        local users described in the report, FEMA will update its group policy to address the password
        vulnerabilities. This action is planned for completion by June 30, 2012.

        FEMA considers this recommendation resolved and open until implementation of the above action.

        RecommendatioD #7: Account for all wireless networks within a recognized IT system and
        implement management controls to ensure that annual wireless security assessments are conducted.

        RespoDse: The CIa is requiring that all wireless devices/networks be enrolled into the FEMA
        Network Operations Center for management and monitoring. The Chief Infonnation Security
        Officer will establish controls to ensure that wireless security assessments are conducted annually.
        These actions are scheduled to be completed by September 30, 2012.

        FEMA considers this recommendation resolved and open until implementation of the above action.

        Again, we thank you for the opportunity to review your draft report. If you have any questions,
        please have your staff contact Brad Shetks, FEMA's OIG and GAO Liaison, at 202-646-1308.


        Attachment I - Listing ofIncident Reports for Lost or Stolen Laptops

        Attachment 2- FEMA Manual 119-7-1, Personal Property

        Attachment 3- DHS 4300A, Sensitive Systems Handbook, Attachment G, Rules of Behavior

        Attachment 4 - FEMA Standard Operating Procedures, Electronic and Hard Copy Media
        Sanitization and Release




                                                           3




            Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                                     Page 24

Appendix C
Major Contributors to this Report

                     Chiu-Tong Tsang, Director
                     Mike Horton, IT Officer
                     Amanda Strickler, Team Lead
                     Bridget Glazier, IT Auditor
                     David Bunning, IT Specialist
                     Gregory Wilson, Management/Program Assistant
                     Matthew Worner, Referencer




           Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA

                                           Page 25
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator, FEMA
                      Chief Information Officer, DHS
                      Chief Information Security Officer, DHS
                      Chief Information Officer, FEMA
                      Chief Administrative Officer, FEMA
                      Chief Information Security Officer, FEMA
                      Associate Administrator, Response and Recovery, FEMA
                      Director, Compliance and Oversight, DHS OCISO
                      Director, GAO/OIG Liaison Office
                      Audit Liaison, CIO, DHS
                      Audit Liaison, CISO, DHS
                      Audit Liaison, FEMA
                      IT Audit Liaison, FEMA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Progress Has Been Made in Securing Laptops and Wireless Networks at FEMA


                                           Page 26

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
